        Office Of Inspector General




November 17, 2005

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:        Audit Report – Opinion on the Postal Service’s Special-Purpose
                Financial Statements (Report Number FT-AR-06-005)

We have audited the accompanying reclassified balance sheet as of
September 30, 2005, and September 30, 2004, and the reclassified related statements
of net cost and changes in net position for the years then ended (hereinafter referred to
as the special-purpose financial statements) contained in the special-purpose closing
package of the Postal Service (Project Number 05BM007FT000). These special-
purpose financial statements are the responsibility of Postal Service management. Our
responsibility is to express an opinion on these financial statements based on our audit.
(See the appendix for the special-purpose financial statements, notes, and other data.)

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements, related to special-purpose financial
statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the special-purpose financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the special-purpose financial statements. An
audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the Treasury Financial Manual (TFM), Volume I,
Part 2, Chapter 4700, solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in
preparing and auditing the Financial Report of the U.S. Government, and are not
intended to be a complete presentation of the Postal Service’s financial statements.
Opinion on the Postal Service’s Special-Purpose                          FT-AR-06-005
 Financial Statements


In our opinion, the special-purpose financial statements referred to above present fairly,
in all material respects, the financial position of the Postal Service as of September 30,
2005 and September 30, 2004, and its net costs and changes in net position for the
years then ended in conformity with accounting principles generally accepted in the
United States of America and the presentation pursuant to the requirements prescribed
of the TFM, Chapter 4700.

For FY 2005, Postal Service management classified the current portion of the unspent
emergency planning appropriation and a liability for employee flexible spending account
funds as Other Liabilities. Accordingly, these accounts were reclassified ($28 million
and $21 million respectively) from their prior year presentation to be consistent with
FY 2005.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by TFM, Chapter 4700. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such information
for consistency with the related information presented in the Postal Service’s financial
statements. However, we did not audit this information, and accordingly, we express no
opinion on it.

In accordance with Government Auditing Standards, reports were issued dated
November 14, 2005, and November 10, 2004, by another auditor on its consideration of
the Postal Service’s internal control over financial reporting and its compliance with
certain provisions of laws and regulations. The reports are an integral part of audits of
general purpose financial statement reporting performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the Postal Service’s internal control over the special-purpose financial
statements and compliance with the TFM, Chapter 4700. Management is responsible
for establishing and maintaining internal control over financial reporting, including Other
Data, and for complying with laws and regulations, including compliance with the TFM,
Chapter 4700, requirements.

Our consideration of internal control over the financial reporting process for the
special-purpose financial statements would not necessarily disclose all matters in the
internal control over the financial reporting process that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants,
reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting
that, in our judgment, could adversely affect the Postal Service’s ability to record,
process, summarize, and report financial data consistent with the assertions by




                                                  2
Opinion on the Postal Service’s Special-Purpose                         FT-AR-06-005
 Financial Statements


management in the special-purpose financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements,
in amounts that would be material in relation to the special-purpose financial statements
being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions.

We found no material weaknesses in internal control over the financial reporting
process for the special-purpose financial statements, and our tests of compliance with
the TFM, Chapter 4700, requirements disclosed no instances of noncompliance that are
required to be reported under Government Auditing Standards and OMB Bulletin 01-02.
However, providing opinions on internal controls over the financial reporting process for
the special-purpose financial statements or on compliance with the TFM, Chapter 4700,
requirements were not objectives of our audit of the special-purpose financial
statements, and accordingly we do not express such opinions.

The report is intended solely for the information and use of the Postal Service, the U.S.
Department of the Treasury, the Office of Management and Budget and the U.S.
Government Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not be
used by anyone other than these specified parties.

/s/ Gordon C. Milbourn III

Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment

cc: Lynn Malcolm
    Vincent H. DeVito
    Margaret A. Weir
    Steven R. Phelps




                                                  3
